relative to the audit. It also provides audit objectives and suggested audit procedures for
determining compliance with the requirements. Without the Supplement, auditors would need to
research many laws and regulations for each audited program to identify the compliance
requirements that are relevant and could have a direct and material effect on a program.

Issue

        The Compliance Supplement is not a static document. It must be updated and remain
current to be effective. The Senate and House Reports supporting the 1996 Amendments to the
Single Audit Act cited studies of the single audit process that argued the case for an updated
Compliance Supplement.1 A study by the National State Auditors Association, for example,
stated

        The Compliance Supplement provides an invaluable tool to both Federal agencies and
        auditors in setting forth the important provisions of Federal assistance programs. This
        tool allows Federal agencies to effectively communicate items that they believe are
        important to the successful management of the program and legislative intent. Such a
        valuable tool requires constant review and update. [emphasis added]

To ensure the Supplement remains current, OMB Circular A-133 requires Federal agencies to
inform OMB annually of any updates, including the addition of programs. Historically, the
Department had not contributed significantly to the Supplement, submitting detailed supplement
write-ups for only six programs (four BIA programs and two FWS programs). Beginning with
the 2007 Supplement, the Department has become a more active contributor – the 2009
Supplement, which OMB will be issuing within the next two months, will include 10 Department
programs (four BIA programs, five FWS programs, and one MMS program).

        Despite this increase in activity, the Department lags behind other agencies in terms of
presence in the Supplement. Of the 184 Department programs listed in the November 2008 print
edition of the Catalog of Federal Domestic Assistance (CFDA), 166 programs cite a Single Audit
requirement. Yet, the 2009 Supplement will include only 10 programs, or 6 percent of
Department programs with Single Audit requirements. The 2009 Compliance Supplement will
include detailed supplement write-ups for the following programs:

                CFDA 15.021 – Consolidated Tribal Government Program
                CFDA 15.022 – Tribal Self-Governance
                CFDA 15.030 – Indian Law Enforcement
                CFDA 15.042 – Indian School Equalization Program
                CFDA 15.426 – Coastal Impact Assistance Program
                CFDA 15.605 – Sport Fish Restoration Program
                CFDA 15.611 – Wildlife Restoration
                CFDA 15.614 – Coastal Wetlands Planning, Protection and Restoration Act
                CFDA 15.623 – North American Wetlands Conservation Fund
                CFDA 15.635 – Neotropical Migratory Bird Conservation

1
 These studies were performed by the Government Accountability Office, the President’s Council on Integrity and
Efficiency, and the National State Auditors Association (NSAA).
                                                                                                                  2
Unless the Department plans to award all of the Recovery Act grants through the above existing
CFDA numbers, Recovery Act audit guidance for IPAs in fiscal years 2010 and 2011 (projected
to be when much of the Recovery Act money is expended by grantees) seems insufficient.

        To utilize the Compliance Supplement to provide sufficient guidance to IPAs, the
Department could determine which existing financial assistance programs will be used and
whether any new programs will be created to award Recovery Act funds. The Department could
then plan to add those programs to the 2010 Compliance Supplement. The revision process for
the Compliance Supplement usually begins in September, with draft program write-ups due to
OMB by the beginning of November. If the Department were to take these steps, single audits of
Recovery Act financial assistance awards could be more cost-effective and useful by focusing
the efforts of auditors who perform single audits.

Assistance Activities

      As a member of the Compliance Supplement Core Team, our National Single Audit
Coordinator (NSAC) oversees the Department’s annual Compliance Supplement updates. The
NSAC is available to assist the Department in undertaking the recommended initiative to further
promote accountability of the Department’s Recovery Act financial assistance programs.

       We do not require an official response to this advisory. Please feel free to contact me if
you have any questions.

cc:    Acting Assistant Secretary – Policy, Management and Budget
       Director, Office of Financial Management
       Departmental GAO/OIG Audit Liaison
       Audit Liaison, Office of the Secretary




                                                                                                    3
  Report Fraud, Waste, Abuse ,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone:Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
             allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 4428 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free            800-424-5081
                  Washington Metro Area        703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
